   August 12, 2003




Homeland Security


DoD Fire and Emergency
Services Program
(D-2003-121)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFB                   Air Force Base
ARFF                  Aircraft Rescue and Firefighting
CBRNE                 Chemical, Biological, Radiological, Nuclear, and High-Yield
                         Explosive
DLA                   Defense Logistics Agency
DoDI                  Department of Defense Instruction
F&ES                  Fire and Emergency Services
GAO                   General Accounting Office
GSA                   General Services Administration
HAZMAT                Hazardous Materials
MACI                  Military Adaptation of Commercial Items
MAF                   Manhour Availability Factor
PMF                   Position Manning Factor
          Office of the Inspector General of the Department of Defense
Report No. D-2003-121                                                     August 12, 2003
   (Project No. D2002CB-0182)

                  DoD Fire and Emergency Services Program

                                 Executive Summary

Who Should Read This Report and Why? Civilian and military program managers for
fire and emergency services at DoD installations should read this report. The report
discusses how shortfalls for staffing and apparatus could adversely impact firefighter
safety and installation missions.
Background. This evaluation was conducted in response to a request from the Deputy
Under Secretary of Defense (Installations and Environment) to determine the adequacy
and effectiveness of the DoD Fire and Emergency Services Program. The House of
Representatives Report accompanying H.R. 5010, the FY 2003 Defense Appropriations
Bill, states that the Committee on Appropriations was concerned that the level of fire and
emergency response protection at Military installations may not meet minimum safety
standards for staffing, equipment, and training. The Committee on Appropriations
directed that the Deputy Under Secretary of Defense (Installations and Environment)
provide adequate resources when implementing the DoD Fire and Emergency Services
Strategic Plan as well as ensure that installations comply with fire protection standards,
including DoD Instruction 6055.6, “DoD Fire and Emergency Services Program,”
October 10, 2000.

Results. Additional missions, increased deployments, National Guard and Reserve
mobilizations, and inefficient hiring processes have adversely affected fire department
staffing. As a result, firefighters have worked significant overtime, which may impact
the fire department’s ability to accomplish its missions and lead to potential safety risks
for firefighters. The Deputy Under Secretary of Defense (Installations and Environment)
with the DoD Components, should jointly update and implement DoD Instruction 6055.6
so that the instruction addresses anticipated staffing for additional missions; should
establish a manpower standard that incorporates each mission assigned to the fire and
emergency services program; and should establish and publish a detailed human capital
strategic plan (finding A).

Although DoD and the Services developed authorization levels and replacement
standards for firefighting apparatus, the Services did not provide a priority during the
budget process for firefighting apparatus. As a result, the Services are underfunded by
approximately $550 million for meeting firefighting apparatus requirements, which could
result in the apparatus in the inventory becoming unreliable and unserviceable and, more
importantly, negatively impact installation missions. To ensure priority for firefighting
apparatus during the budget process, the Army, Navy, and Marine Corps should each
develop modernization plans for their respective Service for fire and emergency services
apparatus (finding B).
We also reviewed the management control program as it related to DoD fire and
emergency services programs. We identified material management control weaknesses,
in that the management of fire and emergency service programs and implementation of
DoD Instruction 6055.6 did not ensure that the installations were adequately staffed or
resourced with sufficient fire apparatus to respond to emergencies. If management
implements all of the recommendations, fire departments may increase their ability to
accomplish missions, eliminate potential safety risks, and increase the reliability of
firefighting apparatus.

Management Comments and Evaluation Response. The Assistant Deputy Under
Secretary of Defense (Environmental, Safety & Occupational Health) concurred, stating
that they plan to implement the recommendations by incorporating them into the DoD
Fire and Emergency Services Strategic Plan no later than December 31, 2003. The Army
Assistant Chief of Staff for Installation Management concurred and stated that the Army
will participate in updating DoD Instruction 6055.6, examine the position manning factor
to meet additional missions, and contact other agencies to obtain guidance on developing
a Human Capital Management Plan. Additionally, the Army is developing criteria to
replace firefighting apparatus, and is investigating leasing programs due to severe
funding shortages for new equipment purchases. The Commander, Naval Facilities
Engineering Command concurred, in general, with the apparatus modernization plan
recommen-dations, but did not agree that leasing firefighting apparatus is an
economically prudent method for updating aged apparatus. The Air Force Deputy Chief
of Staff (Installations and Logistics) fully concurred, stating that the Air Force plans to
implement consistent manpower standards by December 2003. The Commandant of the
Marine Corps concurred, stating that the Marine Corps will work with the Deputy Under
Secretary of Defense (Installations and Environment) to update DoD Instruction 6055.6.
In addition, the Marine Corps will develop plans to modernize and replace aged
firefighting apparatus, and will allocate funds annually until a continual funding stream is
identified. We requested that the Services consider leasing firefighting apparatus in their
apparatus modernization plans as an alternative to purchasing new firefighting apparatus.
Because the Army agreed that leasing should be a consideration in the apparatus
modernization plan and the Air Force modernization plan considers leasing as a sound
strategy, we believe that the Navy should also consider in its modernization plan leasing
firefighting apparatus as an alternative. Therefore, we request additional comments from
the Navy on the final report by October 10, 2003. See the Finding sections of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Other Matters of Interest                                                 3

Findings
     A. Staffing of DoD Fire Departments                                  4
     B. DoD Firefighting Apparatus Modernization                         12

Appendixes
     A. Scope and Methodology                                            19
          Management Control Program Review                              20
          Prior Coverage                                                 21
     B. Communication Interoperability                                   23
     C. Emergency Medical Services                                       25
     D. Additional Missions for Fire Departments                         26
     E. Human Capital Strategy Standards                                 27
     F. Management Letter Dated April 11, 2003, and Response             28
     G. Report Distribution                                              31

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   33
     Department of the Army                                              34
     Department of the Navy                                              37
     Department of the Air Force                                         43
Background
    This evaluation was conducted in response to a request from the Deputy Under
    Secretary of Defense (Installations and Environment). The Deputy Under
    Secretary stated that as a result of the events of September 11, 2001, the
    importance of efficient and effective fire safety and emergency support systems
    within DoD has become paramount.

    House Report 107-532, FY 2003 Defense Appropriations Bill. The House of
    Representatives Report accompanying H.R. 5010, the FY 2003 Defense
    Appropriations Bill, states that the Committee on Appropriations was concerned
    that the level of fire and emergency response protection at Military installations
    may not meet minimum safety standards for staffing, equipment, and training.
    The Committee on Appropriations directed that the Deputy Under Secretary of
    Defense (Installations and Environment) provide adequate resources when
    implementing the DoD Fire and Emergency Services (F&ES) Strategic Plan as
    well as ensure that installations comply with protection standards, including DoD
    Instruction (DoDI) 6055.6, “DoD Fire and Emergency Services Program,”
    October 10, 2000.

    DoD Policy. DoDI 6055.6 establishes the policy for the operation and
    administration of F&ES Program within DoD. The DoDI requires that DoD
    Components establish and maintain an installation F&ES program as an element
    of the overall DoD accident prevention program. DoD F&ES programs must
    comply with Department of Labor Occupational Safety and Health
    Administration standards, the National Fire Protection Association standards, the
    Commission on Fire Accreditation International Self-Assessment Manual, and
    fire safety criteria the DoD publishes. The DoDI also requires that DoD fire
    departments are prepared to respond to emergencies involving DoD facilities,
    structures, aircraft, transportation equipment, hazardous materials (HAZMAT),
    and both natural and manmade disasters. The DoDI also includes requirements
    for response, training, and mutual aid.
    DoD F&ES Program. The Deputy Under Secretary of Defense (Installations
    and Environment) is responsible for oversight of the DoD F&ES program. The
    Assistant Deputy Under Secretary of Defense (Safety and Occupational Health)
    administers the program according to DoDI 6055.6. Each DoD Component has
    an F&ES program. According to the DoD Component F&ES Program Managers,
    355 structural and aircraft rescue and firefighting (ARFF) fire departments are in
    DoD, with approximately 15,708 civilian and military firefighters.

    F&ES Working Group. DoDI 6055.6 establishes a DoD F&ES Working Group.
    The DoD F&ES Working Group includes representatives from each DoD
    Component. The F&ES Working Group recommends policies related to fire
    prevention, fire suppression, training, fire apparatus, fire equipment, fire
    administration, emergency medical response, rescue, and HAZMAT emergency
    response. The F&ES Working Group also serves as the technical advisor for the
    F&ES program and revises the DoD F&ES Strategic Plan, develops metrics, and
    maintains an emergency services manual.



                                         1
F&ES Strategic Plan. The DoD F&ES Working Group completed the update to
the 1998 DoD F&ES Strategic Plan. The strategic plan published in June 2003
identifies the challenges and opportunities, strengths and weaknesses, and critical
success factors for the program. The strategic plan also lists strategies and
procedures for attaining the goals of the F&ES program. Some of the strategies
are:

       •   comply with the minimum staffing requirements identified in
           DoDI 6055.6 by FY 2004;

       •   address each identified vulnerability and risk, including chemical,
           biological, radiological, nuclear, and high-yield explosive (CBRNE)
           incidents;

       •   develop a concept of operations for fire department response to
           CBRNE incidents; and

       •   identify additional staffing, vehicles, equipment, and facilities to
           support additional missions.

Mutual Aid. DoD Components are encouraged to enter into mutual aid
agreements with local fire protection agencies for F&ES. Mutual aid agreements
may supplement a portion of the DoD requirements for F&ES if practical and
agreeable to the local agency involved. Without the mutual aid agreement,
installation commanders are authorized to assist with F&ES in the vicinity of the
installation, if providing assistance is in the best interest of the United States.
DoD installations we visited had mutual aid agreements that supported F&ES
programs. The local communities for the installations we visited support the
mutual aid process and often depend on the DoD F&ES for emergency incident
support.

Communication Interoperability. For public safety purposes, interoperability is
defined as the ability of public safety personnel to communicate with other
agencies both on demand and in real time. Interoperability involves
communications among a variety of public safety and public service organizations
at all levels of government. In addition, interoperability encompasses different
types of day-to-day mission-critical operations, mutual aid, and task force
communications. A discussion of communication interoperability issues and
initiatives is in Appendix B.

Emergency Medical Services. As part of their duties as first responders to
incidents, DoD firefighters perform emergency medical services. Fire
departments have increasingly taken on more emergency medical services
responsibilities, and, in some cases, acquired full ambulance service. Some
F&ES program managers and emergency medicine consultants believe that fire
departments instead of medical treatment facilities on installations should provide
ambulance service. Information on emergency medical services is in
Appendix C.




                                     2
Objectives
     The overall objective was to determine whether the DoD F&ES program is
     adequate and effective. We evaluated the ability of DoD to identify, assess, and
     resolve fire and emergency service issues. Additionally, we reviewed DoD
     coordination and implementation of mutual aid agreements. For a discussion of
     the scope and methodology, prior coverage, and a review of the management
     control program as it related to the objectives, see Appendix A.


Other Matters of Interest
     Senior management oversight at the Office of the Secretary of Defense level is
     critical for the success of the DoD F&ES program. F&ES human capital and
     apparatus issues could adversely affect installation readiness and missions. The
     Deputy Under Secretary of Defense (Installations and Environment) does not
     require reporting the status of human capital and firefighting apparatus in annual
     in-progress reviews for the DoD Component F&ES programs. We brought this
     issue to the attention of the Deputy Under Secretary of Defense (Installations and
     Environment) in a management letter dated April 11, 2003. On May 19, 2003,
     the Principal Assistant Deputy Under Secretary of Defense (Installations and
     Environment) responded to the management letter, stating that oversight of the
     DoD Fire and Emergency Services Program is important and that his office will
     evaluate our recommendations along with their review of our draft report. See
     Appendix F for a copy of the management letter and response. In response to the
     draft report, the Assistant Deputy Under Secretary of Defense (Environmental,
     Safety and Occupational Health) did not specifically address the issues identified
     in the April 11, 2003, management letter. However, an official from the Office of
     the Assistant Deputy Under Secretary of Defense (Environmental, Safety and
     Occupational Health) subsequently stated that management oversight and in-
     progress reviews would be addressed in both a business plan and the DoD Fire
     and Emergency Services Strategic Plan.




                                         3
            A. Staffing of DoD Fire Departments
            Additional missions, increased deployments, National Guard and Reserve
            mobilizations, and inefficient hiring processes have adversely affected fire
            department staffing. The condition occurred because DoD did not:

                •   publish a policy that addresses resource requirements for
                    additional missions or simultaneous incidents,

                •   update the position manpower factor (PMF) to include increased
                    mission requirements, or

                •   have a human capital strategic plan for F&ES.

            As a result, DoD firefighters worked significant overtime, which may
            impact a fire department’s ability to accomplish missions and may lead to
            potential safety risks to firefighters.


High-Level Concerns for Human Capital Management
     Various Federal agencies have highlighted the importance of managing human
     capital resources. The President’s Management Agenda, which sets forth the
     President’s strategy for improving management and performance of the Federal
     Government, outlines five goals. One of those goals is the strategic management
     of human capital.

     In January 2001, the General Accounting Office (GAO) designated management
     of strategic human capital as a Government-wide high-risk area and stated that
     one of the challenges the Federal Government faces in human capital was a lack
     of strategic planning and organizational alignment. In addition, a January 2001
     GAO report states that human capital shortfalls threaten the ability of many
     agencies to economically, efficiently, and effectively perform their missions.
     GAO identified the problem as a lack of a consistent strategic approach to
     managing and maintaining the human capital needed to maximize Government
     performance. In December 2002, GAO reported that Congress underscored the
     consequences of human capital weaknesses in Federal agencies, pinpointing
     solutions through oversight and hearings. Congress passed the Homeland
     Security Act of 2002 in November 2002. The Act includes provisions for human
     capital management as well as the Federal workforce.


Staffing Issues Affecting Fire Departments
     Installation fire departments are finding it difficult to meet minimum staffing
     requirements. Additional missions, increased deployments, recent National
     Guard and Reserve mobilizations, and the hiring process for firefighters affect
     both


                                          4
military and civilian firefighters. To meet minimum staffing requirements
without compromising the safety of the firefighter, fire departments are forced to
creatively manage human capital.

Additional Missions. Additional missions have increased the responsibility for
DoD fire departments. The additional missions are over and above the structural
fire suppression, prevention, and education duties. DoD policies identify
response requirements for HAZMAT, technical rescue, wildland fire, and
CBRNE incidents. DoD policies, however, do not provide increased staffing
requirements that take into account either additional missions or emergency
events occurring simultaneously. For information on additional missions, refer to
Appendix D.

Increased Deployments. Military firefighters are subject to deployment for
fighting fires or supporting troops either in the United States or overseas
locations. The Military Personnel Human Resources Strategic Plan for 2002
states that the U.S. military has forward deployed to more locations more often in
the last decade. The increased time that military firefighting personnel are
deployed has potential negative impacts on installation fire departments.

The fire chief at Peterson Air Force Base (AFB), Colorado, identified manpower
as one of the greatest obstacles for the fire department. When the military
firefighters at Peterson AFB are not deployed, the fire department operates at a
95-percent staffing level with no staffing issues. However, deployments of the
military firefighters between November and December 2002, and potential
additional deployments in May and June 2003, could total 42 firefighters, and
leave the fire department staffed at only 46 percent. Peterson AFB, however,
launched several initiatives to account for those significant shortfalls, including
greater use of National Guard and Reserve units and mutual aid as well as the use
of temporary employees.

National Guard and Reserve Mobilizations. Increased National Guard and
Reserve mobilizations affected the DoD fire departments. According to data from
the Defense Manpower Data Center, DoD employs approximately 8,891 civilian
firefighters--681 of whom also serve in either the Army or Air National Guard, or
Army, Air Force, Naval, Marine Corps, or Coast Guard Reserves. National
Guard personnel and Reservists have the potential for being mobilized for active
duty at any time. The positions that those National Guard or Reserve personnel
occupy while on active duty, however, are not considered vacant. Fire
departments cannot hire additional firefighters without vacant positions, and must
incorporate alternative solutions such as hiring temporary employees or requiring
other firefighters to work overtime. Additionally, at installations where fire
departments have vacant billets or are authorized to hire temporary positions, fire
chiefs may encounter a lengthy hiring process.

The Fire Chief at Fort Rucker, Alabama, stated that four civilian firefighters were
mobilized for National Guard or Reserve duty. The chief stated that 16
firefighters employed at Fort Rucker have the potential to be mobilized for active
duty. The Fort Rucker Fire Chief also stated that if all of those 16 firefighters
were mobilized for active duty at the same time, Fort Rucker would have to close
4 airfields, which would disrupt the installation training mission. In another case,


                                     5
the Fire Chief at Defense Distribution Susquehanna, Pennsylvania, stated that
firefighters had to work overtime to make up for one Reservist who was
mobilized to active duty. The Fire Chief at Susquehanna stated that the recruiting
and hiring process became too lengthy to hire a temporary employee.

DoD Firefighter Hiring Process. Fire chiefs from the Army, Navy, and Marine
Corps identified the hiring process as an issue. The Fire Chief at the Naval Air
Station Pensacola, Florida, stated that the time it takes to fill a firefighting
vacancy can be in excess of 6 months, leaving fire departments with decreased
staffing. The Fire Chief also stated that the automated system the Human
Resources Services Center Stennis, Mississippi, uses takes between 30 and
120 days to transmit a certification list from which the Fire Chief may select a
new hire. The Fire Chief stated that after the selection process, an additional 6 to
8 weeks are required to get the firefighter on board, and the firefighter must pass
an agility test. If the firefighter fails the agility test, local policy requires that the
firefighter wait 90 days before retesting. If the firefighter fails the agility test a
second time, the position is reopened, and the entire hiring process starts from the
beginning, increasing the amount of time the fire department is understaffed.

DoD Hiring Initiatives. DoD is aware of problems within the hiring process and
is attempting to streamline the process. The Office of the Deputy Assistant
Secretary of Defense (Civilian Personnel Policy) drafted a personnel plan based
on the review of best practice projects at Federal agencies. The plan, called the
Best Practices Project, places employees into five career groups, each with a
unique four-level salary schedule.

The plan creates new criteria for promoting, reassigning, and demoting
employees, and includes provisions for on-the-spot hiring authority. The plan
states that on-the-spot hiring authority may be exercised if:

        •   a severe shortage of candidates exists,

        •   the position is unique or has special qualifications,

        •   the position has an historically high turnover rate,
        •   the occupation is covered by a special salary rate, or

        •   an exceptional need exists.

The Director, Defense Civilian Personnel Management Service stated that when
the Secretary of Defense approves the plan, it will be approved as a demonstration
project for all DoD laboratory employees. The Director estimated that by 2005
Congress would approve legislation that exports the plan to all of the civilian
employees in DoD.




                                        6
Resource Requirements
    DoD and the Services have not updated policies that include additional missions.
    Services have also not updated the PMF to account for increased missions. The
    Services use the PMF to determine staffing levels. Fire chiefs from each Service
    expressed concerns with insufficient manpower and increased requirements.

    DoD Policies. DoDI 6055.6 provides staffing levels for structural firefighting but
    does not account for increased manpower levels as a result of additional missions.
    Staffing requirements for each shift outlined in the DoDI are based on the number
    of firefighting apparatus. The DoDI requires a minimum of four firefighters for
    each structural apparatus and that installation fire departments shall not fall below
    minimum staffing levels.

    DoDI 2000.18, “Department of Defense Installation Chemical, Biological,
    Radiological, Nuclear and High-Yield Explosive Emergency Response
    Guidelines,” December 4, 2002, provides guidelines for fire and HAZMAT
    response functions for CBRNE events. The instruction, however, does not
    identify staffing levels that will support a CBRNE response. The number of
    firefighters required for HAZMAT response at installations we visited varied.
    The Fire Chiefs at installations we visited decided, based on HAZMAT
    capabilities, the number of firefighters required. Using National Fire Protection
    Association standards, the DoD F&ES Working Group determined that 15 was
    the minimum number of trained personnel required to respond to HAZMAT and
    CBRNE incidents.

    Position Manpower Factor. The Services have not updated the PMF to take into
    consideration increased missions. The Marine Corps Fire Protection Program
    Manager stated that the Marine Corps has not updated the PMF since 1976. The
    formula for determining the number of firefighters required for a 72-hour work
    week is determined by using the minimum staffing levels identified in
    DoDI 6055.6. That number is multiplied by the PMF. The PMF is based on the
    manhour availability factor (MAF).
    Manhour Availability Factor. The MAF is defined as the average time an
    assigned individual is available to perform their primary duties during 1 month.
    The MAF is used for determining the PMF and is calculated by subtracting the
    average time a firefighter is unavailable to perform assigned duties, or
    nonavailability time, from the assigned time for 1 month. Factors such as annual
    and sick leave, approved special absences, permanent change of station time,
    medical leave, education and training, physical fitness testing, and administrative
    duties are taken into consideration when calculating the MAF.

    The Services calculate the PMF by multiplying the number of hours per day, days
    per week, and weeks per month (4.348) and dividing the total by the MAF.
    Because the MAF does not take into account the increased manhours needed to
    perform additional missions, the PMF does not reflect the number of positions
    needed to staff a position for 72 hours.




                                          7
    Responses to Simultaneous Incidents. DoDI 6055.6 does not address staffing
    requirements for emergency events that occur simultaneously. Fire departments
    given responsibilities in addition to structural firefighting do not have the
    additional resources for responding to multiple incidents. The Fire Chief at
    Defense Distribution Susquehanna, Pennsylvania, identified safety issues
    concerning responses to simultaneous incidents. He stated that his department is
    able to respond to two concurrent calls, but is only able to provide interior fire
    suppression at one incident. The other response would be exterior operations
    only because the fire department cannot provide two teams of four when
    responding to more than one call. National Fire Protection Association 1500,
    “Standard on Fire Department Occupational Safety and Health Program,” 2002,
    requires a minimum of four firefighters to work a structural fire--two individuals
    in the hazard area and two individuals present outside the hazard area.


Human Capital Strategy
    DoD lacks a human capital strategy for the F&ES program. A human capital
    strategy for the F&ES program may help DoD identify shortfalls within F&ES as
    well as provide a basis for the human capital resources required for supporting
    F&ES programs. Various government agencies have already published guidance
    on management of human capital assets. In August 2002, DoD published the
    Military Human Resources Strategic Plan and the Civilian Human Resources
    Strategic Plan 2002 - 2008. Those plans do not, however, discuss using a human
    capital strategic plan for the management of human capital specifically for the
    F&ES program. Additionally, DoD published a F&ES Strategic Plan in June
    2003, which identifies the lack of a human capital strategy as a challenge for
    DoD. However, the Strategic Plan does not list development of a human capital
    strategy as a strategic goal or objective.

    Guidance for Human Capital Management. The Office of Management and
    Budget, the Office of Personnel Management, and GAO independently published
    models and guides designed to help agencies manage human capital. To address
    the need for a comprehensive human capital framework, the Office of
    Management and Budget, the Office of Personnel Management, and GAO
    collaborated to produce the Human Capital Assessment and Accountability
    Framework. The framework provides a basis for self-assessments and support for
    achieving the Human Capital Standards for Success. Because the framework
    does not prioritize elements or performance indicators, agencies can modify the
    framework to meet varying missions, plans, or budgets. For additional discussion
    of human capital strategy standards, see Appendix E.

    DoD F&ES Strategic Plan. The DoD F&ES Strategic Plan does not include a
    human capital strategy. One of the goals in the DoD F&ES Strategic Plan
    discusses complying with the minimum staffing requirements identified in
    DoDI 6055.6 by FY 2004. The goal requires that DoD installations fill vacant
    positions and identify mission requirements where staffing is not currently
    provided. The DoD F&ES Strategic Plan would be the ideal location for DoD to
    address human capital issues in a detailed F&ES human capital strategy.



                                         8
     DoD can modify the Office of Personnel Management human capital framework
     to address such issues as increased deployments, National Guard and Reserve
     mobilizations, inefficient hiring processes, and additional missions without
     additional resources.


Effects of Staffing Issues
     As a result of staffing deficiencies, DoD firefighters are working significant
     overtime. Substantial and continuous overtime may hinder the ability of
     installation fire departments to accomplish missions by compromising response
     times and firefighting capabilities. Additionally, significant overtime poses
     potential safety risks for firefighters.

     Overtime. DoD fire departments manage human capital shortfalls by routinely
     requiring firefighters to work significant amounts of overtime. Service guidance
     outlines staffing requirements for fire departments based on a 72-hour work week.
     Firefighting duty consists of 24-hour shifts, 3 days per week, with 24 hours off
     between shifts. However, the fire chiefs at 11 of the 13 installations visited
     required firefighters to work overtime to compensate for staffing shortfalls. For
     example, at Defense Distribution Susquehanna, Pennsylvania, firefighters worked
     4,280 hours of overtime during a 13-month period from January 2002 through
     February 2003. At Marine Corps Air Station, Cherry Point, North Carolina,
     firefighters worked 11,530 hours of overtime in FY 2002, costing $221,989.

     Mission Impacts and Safety Risks. Significant overtime and staffing shortfalls
     may impact the ability of DoD fire departments to achieve their mission. Fire
     chiefs also identified potential safety risks to firefighters.

             Mission Impacts. Staffing shortages may have a substantial impact on
     Seymour Johnson AFB, North Carolina, and could affect the ability of the fire
     department at the installation to complete their mission of fire protection. In
     June 2000, Seymour Johnson AFB published a Risk Management Program, which
     identifies impacts on responses during times of staffing shortages. The program
     document indicates that single event responses will be limited, and response times
     may be significantly delayed when staffing levels fall below 60 percent. The fire
     chief at Seymour Johnson AFB stated that as of March 2003, 7 firefighters are
     deployed and 26 firefighters are scheduled for deployment in June 2003. With
     the deployments, staffing levels may fall below 60 percent.

             Safety Risks. Peterson AFB cited safety issues as a potential problem
     with continued human capital shortfalls. The Fire Chief at the Peterson AFB fire
     department stated in a letter to the Commander of the Civil Engineering Squadron
     that during times of deployment, the fire operations element at Peterson AFB is
     understaffed. The letter stated that, with no additional staff, the potential for fire
     departments to perform interior fire and rescue services for aircraft and facilities
     decreases. Additionally, the letter states that staffing shortages also contribute to
     an increased safety risk to firefighters, the base population, and the 1.2 million
     annual customers at the Colorado Springs Airport as a result of firefighters
     working up to 96 hours each week for months at a time. The Peterson AFB fire


                                           9
    department provides all crash, fire, and rescue services to the Colorado Springs
    Airport and terminal. Other effects of severely reduced staffing during
    deployment include cancelled leave, lower morale, and reduced productivity.


Summary
    Additional missions have placed increased responsibilities on fire departments,
    while increased deployments and mobilization of National Guard and Reserve
    units have had significant impacts on military and civilian firefighter staffing and
    left fire departments understaffed. Inefficient hiring processes have hindered the
    ability of installation fire departments to fill vacant positions or hire temporary
    employees. When updating the fire protection policy and manpower standards,
    DoD and the Services have not taken into consideration the additional missions.
    Additionally, DoD has not published a strategic plan specifically for F&ES
    human capital to plan for operating fire departments during times of decreased
    staffing. Fire departments have creatively managed personnel during times of
    human capital shortfalls, but due to significant overtime, may encounter obstacles
    to meeting firefighting missions as well as potential safety issues.


Recommendations and Management Comments
    A. We recommend that the Deputy Under Secretary of Defense
    (Installations and Environment), in coordination with the DoD Components:

          1. Update, publish, and implement DoD Instruction 6055.6 “DoD Fire
    and Emergency Services Program,” October 10, 2000, to address staffing for:

                 a. Hazardous material and chemical, biological, radiological,
    nuclear and high-yield explosives response.

                   b. Technical rescue.

                   c. Simultaneous emergency incidents.

          2. Establish consistent manpower standards for each of the DoD
    Components and incorporate all the missions assigned to the fire and
    emergency services program.




                                         10
        3. Establish and publish a detailed strategic plan for human capital
specifically for fire and emergency services that identifies and resolves issues
such as additional missions, increased deployments, National Guard and
Reserve mobilizations, and inefficient hiring processes without increased
resources.

Assistant Deputy Under Secretary of Defense (Environmental, Safety &
Occupational Health) Comments. The Assistant Deputy Under Secretary of
Defense (Environmental, Safety & Occupational Health) concurred and plans to
implement the recommendations no later than December 31, 2003 by
incorporating them into the DoD Fire and Emergency Services Strategic Plan.

Army Comments. The Assistant Chief of Staff for Installation Management
concurred, stating that updating the current DoDI 6055.6 is necessary to meet first
responder requirements. As current chair of the DoD Fire and Emergency
Services Working Group, the Army will recommend that the Working Group
initiate revision of the DoDI. Revision will include examination of the PMF to
meet existing and increased missions and reduce overtime. In addition, the Army
will contact other government agencies for guidance on developing a human
capital management plan identifying new mission and staffing requirements.

Navy Comments. The Commander, Naval Facilities Engineering Command
concurred and will work with the Deputy Under Secretary of Defense
(Installations and Environment) to develop a policy addressing resource
requirements for additional missions and simultaneous incidents. The Navy will
also work to develop both a consistent manpower standard and a human capital
strategic plan that addresses fire and emergency services.

Air Force Comments. The Assistant Deputy Chief of Staff (Installations and
Logistics) concurred, stating that updating the DoDI 6055.6 to include staffing for
HAZMAT, CBRNE response, technical rescue, and simultaneous emergency
incidents will support efforts to prepare Air Force fire departments for the
missions. In addition, the Air Force will continue to update the Air Force
manpower standard. The Air Force Management and Information Agency
completed a study for updating the PMF and the MAF, which will increase
firefighter manpower requirements by 106 positions. The Air Force expects the
update to be implemented no later than December 31, 2003.

Marine Corps Comments. The Commandant of the Marine Corps concurred,
stating that the Marine Corps will work with the Deputy Under Secretary of
Defense (Installations and Environment) to address staffing issues in
DoDI 6055.6. The Marine Corps will also publish a human capital strategic plan
that addresses fire and emergency services.




                                    11
               B. DoD Firefighting Apparatus
                  Modernization
               Although DoD and the Services developed authorization levels and
               replacement standards for firefighting apparatus, the Services did not give
               priority during the budget process to firefighting apparatus. The condition
               occurred because the Service F&ES Program Managers and Vehicle
               Funding Advocates* did not plan for the modernization of the fleet. As a
               result, the Services are underfunded by $550,059,739 for meeting
               firefighting apparatus requirements, which could result in apparatus
               becoming unreliable and unserviceable, and have a negative impact on
               installation missions.


Firefighting Apparatus
    The fleet of DoD firefighting apparatus consists of various types of firefighting
    and rescue vehicles. The firefighting and rescue vehicles in the fleet include
    structural pumpers, ladder trucks, ARFF vehicles, HAZMAT vehicles, brush
    trucks, along with numerous specialty rescue vehicles. The authorizations for
    firefighting apparatus are based on requirements in DoDI 6055.6.

    Based on DoDI 6055.6, the standard for structural pumpers is based on travel and
    response times. DoDI 6055.6 dictates that the DoD Components determine the
    standard for other types of firefighting apparatus for each installation. The
    guidelines in DoDI 6055.6 for response times require that for 90 percent of the
    alarms the first apparatus must arrive at the incident within 5 minutes and the
    remaining apparatus must arrive within 10 minutes. DoDI 6055.6 requires that
    airfield fire departments must be able to respond to an incident within 3 minutes
    of an alarm. The Services use independently established criteria for replacement
    of firefighting apparatus and procure firefighting apparatus through either the
    General Services Administration (GSA) or the Defense Logistics Agency (DLA).

    Replacement Criteria. The Services use independently established criteria for
    replacement of fire apparatus based on a number of factors. Those factors include
    life expectancies, one-time repair costs, and downtime. The life expectancy for
    fire apparatus varies among the Services and vehicle type, and ranges from 7 to
    25 years. The Navy, Air Force, and Marine Corps developed one-time repair cost
    factors based on the life expectancy and age of the apparatus. The factors are
    multiplied by either the replacement cost or original procurement costs, which
    determines the repair limit. The Army authorizes that one-time repairs can be as
    much as 15 percent of the current acquisition cost of a like item. Any repair

    *
        The Vehicle Funding Advocates for each Service include the Chief, Materiel Support Group,
        U.S. Army Tank-automotive and Armaments Command; the Team Leader for Transportation
        Management-Naval Facilities Engineering Command; the Fire Operations Program Manager Air
        Force Civil Engineering Support Agency; and the Marine Corps Program Manager for Garrison
        Mobile Equipment.



                                              12
    between 15 percent and 50 percent requires Major Command approval, and
    repairs that exceed 50 percent are not authorized. The Navy and Marine Corps,
    however, limits the maximum downtime for apparatus to 10 percent of fleet
    availability.

    Procuring Firefighting Apparatus. The Services procure firefighting apparatus
    through either the GSA supply schedule or the DLA Prime Vendor program.
    GSA and DLA have contracts with fire apparatus manufacturers, and act as
    brokers between the Services and contractors. GSA and DLA manage the
    contracts from the time the order is placed until delivery of the apparatus,
    providing customer service and followup for any quality deficiency reports.


Funding Priority
    The Services did not give priority during the budget process to firefighting
    apparatus. Throughout the programming process, fire apparatus was classified as,
    or grouped with, nontactical vehicles and not recognized as mission critical. The
    Service Vehicle Funding Advocates identified fire apparatus deficiencies for
    outyears using various vehicle reporting and tracking systems. The Services did
    not, however, use information from the tracking systems during the programming
    of funds, and subsequently did not fully fund firefighting apparatus to meet the
    deficiencies.

    Army. The Army reallocated to other Army programs the FY 2004 through
    FY 2006 funds for structural firefighting apparatus. The Army Vehicle Funding
    Advocate stated that because structural firefighting apparatus are classified as
    nontactical vehicles, they must compete for funding with combat systems, tanks,
    and tactical trucks. The Army Vehicle Funding Advocate believed that the
    budget decision makers do not recognize the mission criticality of structural
    firefighting apparatus. The Army Vehicle Funding Advocate forwards, each year,
    the firefighting apparatus deficiencies through the chain of command, but the
    advocate stated that the Army makes the decision not to include the total
    firefighting apparatus deficiencies in the budget.

    Navy. The Navy Vehicle Funding Advocate stated he had submitted requests for
    full funding of firefighting apparatus, but the funding had not been approved
    because of limited procurement funding available and a relatively low priority for
    apparatus in relation to other Navy programs. Amounts allocated to firefighting
    apparatus are used for highest priority replacements. The Navy Vehicle Funding
    Advocate also stated that firefighting apparatus funding, while lower than needed,
    has been increased beginning in FY 2004. Navy firefighting apparatus is
    identified as a separate line item under Other Procurement, Navy, Activity 5,
    which includes passenger-carrying vehicles, general-purpose trucks, and
    construction and maintenance equipment. The Navy Vehicle Funding Advocate
    stated that the resource manager for firefighting apparatus consults with him and
    uses vehicle information from a Navy-wide data call to determine funding. The
    Navy Vehicle Funding Advocate believes the resource manager and chain of
    command recognize the criticality of firefighting apparatus, but other higher
    priority programs do not allow full funding for firefighting opportunities.


                                        13
    Air Force. The Air Force Vehicle Funding Advocate stated that for the last
    5 years, funding for nontactical vehicles, which includes fire apparatus, was
    reallocated to higher priority tactical vehicles and systems. The Air Force
    Vehicle Funding Advocate stated that the lack of funding has deteriorated the
    firefighting apparatus fleet. The Air Force Vehicle Funding Advocate stated that
    prior to 2002, the Air Force used prioritization lists to determine firefighting
    funding. Major Commands consolidate and prioritize the installation lists, which
    would then be consolidated and reprioritized again by Air Force headquarters.
    The Air Force Vehicle Funding Advocate stated that Air Force Civil Engineering
    Support Agency, the Air Force agency responsible for overseeing fire operations,
    was not consulted during the budget process. As of 2002, the Air Force Civil
    Engineering Support Agency is the funding advocate for firefighting apparatus,
    and they have subsequently developed a modernization plan for the firefighting
    apparatus fleet.

    Marine Corps. The Marine Corps Vehicle Funding Advocate stated that the
    Cargo Program, which includes the firefighting apparatus fleet, competes with all
    the Marine Corps programs, tactical and nontactical, for scarce Procurement,
    Marine Corps funding. The Cargo Program, overall, has met with limited success
    during programming cycles when competing with weapons systems
    modernization demands. The Marine Corps traditionally recognizes the
    importance of firefighting apparatus and, while funds are constrained and
    inadequate to meet all replacement demands, a significant portion annually goes
    toward its acquisition. Cargo Program funding levels have essentially remained
    constant, except for annual inflation adjustment. The Marine Corps Vehicle
    Funding Advocate stated that firefighting apparatus must compete within the
    overall Cargo Program against other equally critical requirements.


Fleet Modernization Planning
    The Service F&ES Program Managers and Vehicle Funding Advocates did not
    plan for modernization of the fleets. In 2002, however, the Air Force developed a
    vehicle modernization plan for FY 2005 through FY 2009 that identifies the
    strategies necessary for firefighting fleet modernization, sustains the fleet, and
    improves existing levels of service. A modernization plan provides the priority
    that will obtain predictable funding for modernizing and sustaining the fleet.

    Air Force Firefighting Vehicle Modernization Plan. The Air Force
    Firefighting Vehicle Modernization Plan states that maintaining a state-of-the-art
    firefighting and rescue apparatus fleet that will support flight and ground
    operations is paramount. Air Force headquarters personnel approved the plan.
    The plan provides guidelines that:

           •   initiate fleet modernization and remedy existing vehicle shortfalls;

           •   replace eligible assets; and

           •   minimize deployment requirements.



                                         14
     The plan has detailed methodologies for not only determining priorities and the
     funding amount needed to accomplish fleet modernization but allocating funding
     equitably among the Major Commands based on percentage of fleet ownership.
     The plan also discusses:

            •   vehicle requirements validation,

            •   reduction of assets through leasing, and

            •   cost avoidance measures.

     Inclusion of those factors within a modernization plan and approval of the plan by
     high-ranking officials should provide the justification that will support throughout
     the budget process the fighting apparatus.

     To achieve total fleet modernization, the Air Force plan requests $25 million each
     year until FY 2025. However, the Air Force Vehicle Funding Advocate stated
     that, in addition to the $25 million for each year, the Air Force would require an
     additional 8-percent annual growth factor to resolve within 20 years all the
     deficiencies.


Fleet Status
     The Services are underfunded by $550,059,739 for meeting firefighting apparatus
     requirements. The deficiency includes the apparatus needed for meeting
     authorizations and replacing eligible apparatus. To meet the deficiency, the
     Services need 1,973 firefighting apparatus--264 apparatus below authorizations
     and another 1,709 eligible for replacement. The Air Force has the greatest
     deficiency of apparatus--1,150 apparatus at a cost of $341,082,301--whereas the
     Marine Corps is the least deficient with 174 apparatus at a cost of $33,317,000.




                                          15
    The following table shows as of March 7, 2003, the number of fire apparatus
    authorized, on hand, and eligible for replacement for each Service. The table also
    reflects the total number of apparatus and funding needed to meet deficiencies.

                      Service Firefighting Apparatus Information
                                          On-         Eligible for      Total           Cost of
          Service         Authorize       Hand        Replacemen      Deficiency1      Deficiency
                                                                                              2
                              d                            t

           Army                849          753            223            2963        $88,587,000

          Navy4                569         5835            353             353         87,073,438

      Air Force             2,121         1,946            975          1,150         341,082,301

    Marine Corps               236          220            158             174         33,317,000

           Total            3,775         3,502          1,709          1,973       $550,059,739
     1
         The Total Deficiency is the number of apparatus short of authorizations plus the apparatus
         eligible for replacement as of March 7, 2003
     2
         The Cost of Deficiency is based upon FY 2003 cost per vehicle type provided by the
         Services.
     3
         The Total Deficiency for the Army is 319 apparatus, but the Army has 23 vehicles due in.
     4
         The Navy numbers do not include apparatus procured with the Navy Working Capital
         Fund.
     5
         The number includes apparatus in the inventory awaiting disposal.


Mission Impacts
    The firefighting apparatus that exceeds requirements for age, one-time repair cost,
    or downtime can become unreliable or unserviceable and could have a negative
    impact on installation missions. For example, the Vice Chief of Naval Education
    and Training sent a memorandum to the Chief of Naval Operations that states
    100 percent of the ARFF vehicles within the Chief of Naval Education and
    Training Command are overaged. The memorandum also states that airfield
    operations at Naval Education and Training installations had to be halted on
    59 occasions in 2001 because of ARFF vehicle nonavailability.

    The Director of Public Safety at Fort Rucker sent a memorandum about Military
    Adaptation of Commercial Items (MACI) to the Commander of Army Training
    and Doctrine Command, stating that the firefighting apparatus supporting the
    airfield is overaged and has not been programmed for replacement. The
    manufacturer for the MACI is no longer in business, which makes obtaining
    replacement parts difficult. The memorandum states that the difficulty in


                                                 16
    obtaining replacement parts presents a readiness issue because the flight-training
    mission depends on having serviceable firefighting apparatus. According to the
    Army Fire Chief, Army fire departments have cannibalized parts from
    out-of-service MACIs to keep front line MACIs in the field, but the MACIs are
    reaching the point where the items are unreliable and unserviceable.


Conclusion
    The Services are underfunded by $550,059,739 to meet firefighting apparatus
    requirements. The firefighting apparatus deficiency is made up of the number of
    apparatus short of authorizations plus the apparatus eligible for replacement.
    Firefighting apparatus shortages and maintenance problems are disrupting
    installation missions. The Service F&ES Program Managers and Vehicle
    Funding Advocates should jointly develop plans for modernizing firefighting
    apparatus and seek approval of the plans from senior officials to establish a
    predictable funding stream that modernizes and sustains the firefighting apparatus
    fleet. Firefighting apparatus should be classified as mission critical.


Recommendations, Management Comments, and Evaluation
  Response
    B. We recommend that the Fire and Emergency Services Program
    Managers from the Army, Navy, and Marine Corps develop modernization
    plans for their respective Service for fire and emergency services apparatus.
    The plans shall include a fleet modernization initiative that requires:

          1. Development of a detailed methodology for prioritizing the
    procurement of apparatus.

          2. Consideration of leasing firefighting apparatus that will reduce
    authorizations.

            3. Identification of the required funding that modernizes the fleet as
    well as a methodology that ensures equitable funding throughout the Service.

            4. Approval by Service headquarters that ensures mission criticality
    of firefighting apparatus.

    Army Comments. The Army concurred and is developing criteria for
    replacement of fire apparatus as well as rebuilding fire trucks and investigating
    leasing programs.

    Air Force Comments. Although not required to comment, the Assistant Deputy
    Chief of Staff (Installations and Logistics) stated that the Air Force has provided
    the Firefighting Vehicle Modernization Plan to the other Service representatives
    for their consideration to develop their own plan.



                                         17
Navy Comments. The Commander, Naval Facilities Engineering Command
concurred, in general, with the apparatus modernization plan recommendation.
However, the Commander did not agree that the Services should lease firefighting
apparatus, stating that leasing is not economically prudent, not practical, and will
not reduce authorizations.

Evaluation Response. We requested that the Services consider in their
modernization plans leasing firefighting apparatus as an alternative to purchasing
new firefighting apparatus. Because the Army agreed that leasing should be a
consideration in the apparatus modernization plan and the Air Force
modernization plan considers leasing as a sound strategy, we believe that the
Navy should also consider in its modernization plan leasing firefighting apparatus
as an alternative. Therefore, we request that the Navy provide additional
comments in response to the final report.
Marine Corps Comments. The Commandant of the Marine Corps concurred,
stating that it will develop plans to modernize and replace aged firefighting
apparatus and, until continual funding is achieved, will allocate $500,000
annually for firefighting apparatus replacement equipment. In addition, other
resource alternatives, such as leasing options, will be pursued.




                                     18
Appendix A. Scope and Methodology
   We analyzed DoD and Service policies and procedures, and the laws and acts
   related to F&ES. We also reviewed published research and literature on F&ES.
   The documents we reviewed were dated from March 1994 through
   December 2002.

   We evaluated the ability of DoD to identify, assess, and resolve F&ES issues.
   During site visits, we reviewed information concerning communications and
   interoperability, human capital, vehicle procurement, coordination with local
   communities, training, and management controls. We interviewed officials from
   the Office of the Deputy Under Secretary of Defense (Installations and
   Environment), DoD Component headquarters, and DoD installations. We also
   interviewed local community fire chiefs, and fire and emergency preparedness
   officials from the Department of Energy and the Federal Emergency Management
   Agency to obtain information on compliance of DoD with DoDI 6055.6 and
   National Fire Protection Association standards.

   Universe and Sample. According to DoD Component F&ES Program
   Managers, there are 355 structural and ARFF fire departments. Based on the
   recommendations from DoD Component F&ES Program Managers, we
   judgmentally selected 13 installations that represented each of the Services and
   DLA. We visited and reviewed the F&ES programs at the following installations:

          •   Fort Belvoir, Virginia

          •   Fort Carson, Colorado

          •   Fort Rucker, Alabama

          •   Navy Regional Fire Rescue Hampton Roads, Virginia

          •   Naval Air Station Patuxent River, Maryland
          •   Naval Air Station Pensacola, Florida

          •   Air Force Academy, Colorado

          •   Peterson AFB, Colorado

          •   Seymour Johnson AFB, North Carolina

          •   Marine Corps Air Station Cherry Point, North Carolina

          •   Marine Corps Base Camp Pendleton, California

          •   Marine Corps Base Quantico, Virginia

          •   Defense Distribution Susquehanna, Pennsylvania



                                       19
    We performed this evaluation from July 2002 through April 2003 according to
    standards implemented by the Inspector General of the Department of Defense.
    We did not include fire prevention in our review of the DoD F&ES program.
    Additionally, our scope was limited in that we did not review ARFF departments
    at Marine Corps installations visited because those fire departments are separate
    from the structural fire departments. However, we reviewed nontactical apparatus
    to include ARFF apparatus. We did not review F&ES programs at National
    Guard or Reserve installations. In addition, we limited our review to fire
    departments located in the continental United States.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls of the FORMIS manpower database the Defense Manpower
    Data Center uses to process civilian and military personnel data. We did not
    evaluate the controls because the data were used to provide only a perspective of
    the National Guard and Reserve mobilization issue. However, not evaluating the
    data did not affect any conclusions reached during the evaluation.

    General Accounting Office High-Risk Area. GAO has identified several high-
    risk areas throughout the Government and in DoD. This report provides coverage
    of the Strategic Human Capital Management and DoD Support Infrastructure
    Management high-risk areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DoD management controls over the management of F&ES programs
    within the DoD Components. We also reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DoD as defined by DoDI 5010.40. DoD management
    controls over the management of F&ES programs and the implementation of
    DoDI 6055.6 were not sufficient to ensure that the installations were adequately
    staffed or resourced with sufficient fire apparatus to respond to emergencies
    involving facilities, structures, transportation equipment, hazardous materials, and
    natural and manmade disasters. If management implements all the
    recommendations, fire departments may increase their ability to accomplish
    missions, eliminate potential safety risks, and increase the reliability of
    firefighting apparatus. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the Deputy Under Secretary
    of Defense (Installations and Environment) and the Departments of the Army,
    Navy, and Air Force.



                                         20
      Adequacy of Management’s Self-Evaluation. We reviewed at 13 sites the
      adequacy of management’s self-evaluation. At two of the sites visited, DoD
      officials did not identify the F&ES Program as an assessable unit and, therefore,
      did not identify or report the material management control weaknesses the
      evaluation identified. At seven of the sites visited, DoD officials identified the
      F&ES Program as part of an assessable unit. However, in its evaluation, DoD
      officials did not identify the specific material management control weaknesses the
      evaluation identified because the evaluations covered a much broader area. At
      the remaining four sites visited, DoD officials identified the F&ES Program as
      assessable units. However, management either did not conduct evaluations, did
      not identify weaknesses during evaluations, or did not report identified
      weaknesses.


Management Comments on the Management Controls
      Army Comments. The Army stated that it cannot establish a baseline
      requirement until DoDI 6055.6 is revised to reflect up-to-date requirements.
      Once the Instruction is updated, management can decide staffing and equipment
      requirements and priorities that maximizes fire and emergency services at Army
      installations. In addition, the Army stated that, although Army fire departments
      may not be assessable units, the new Army Baseline Services Standards generate
      base operations requirements for the Army Program Objective Memorandum
      based on an F&ES Operational Readiness Inspection. Also, headquarters,
      Department of the Army establishes a Management Control Plan that requires all
      fire departments to be inspected triennially using the frequency of the F&ES
      Operational Readiness Inspection.


Prior Coverage
      During the last 5 years, GAO and the Air Force have issued three reports related
      to human capital and emergency medical response. Unrestricted GAO reports can
      be accessed over the Internet at http://www.gao.gov/. Unrestricted Air Force
      Audit Agency reports can be accessed at http://www.afaa.hq.af.mil.

GAO
      GAO Report No. GAO-03-237, “Oversight Process Needed to Help Maintain
      Momentum of DoD’s Strategic Human Capital Planning,” December 2002

      GAO Report No. GAO-02-373, “A Model of Strategic Human Capital
      Management,” March 2002




                                          21
Air Force

     Air Force Audit Agency Report No. 97051035, “Emergency Medical Response
     Ambulance Services,” November 23, 1998




                                     22
Appendix B. Communication Interoperability
   Of the 13 installations visited, 7 installation fire departments were using
   communications systems not compatible with systems the local communities
   used. DoD firefighters work around the incompatibility by either exchanging
   radios with local departments or purchasing radios identical to those of the local
   fire departments. DoD and other Federal agencies are working to remedy the
   problem of interoperability.

   National Problem. In April 1999, the Public Safety Wireless Network conducted
   a study of the communications interoperability issues in the fire and emergency
   medical community. More than 1,000 fire and emergency medical agencies
   nationwide took part in the survey used for the study. Many of the respondents
   indicated that the limited interoperability had, at some time, hampered their
   ability to respond to a call. Agencies identified the most serious problems related
   to the operation of their land mobile radio systems as dead spots, interference,
   insufficient equipment, outdated equipment, and channel congestion.

   Initiatives. To preserve frequency and bandwidth, DoD and other Federal
   agencies have undertaken initiatives and adopted policies that govern use of land
   mobile radios and spectrum use. One such initiative--SAFECOM†--is one of the
   President’s top three electronic Government initiatives. DoD has adopted
   mandates the National Telecommunications and Information Administration
   published requiring systems that use less bandwidth to operate.

           SAFECOM. The role of SAFECOM is to provide public safety agencies
   with the knowledge, leadership, and guidance needed to help them achieve
   short-term interoperability and long-term compatibility. SAFECOM partners
   work to address the difficulties associated with public safety radio network
   incompatibilities and the need for developing better business processes. The
   program manager for SAFECOM stated that the program will introduce work
   packages in three stages:

               •    interoperability solutions successfully fielded at state and local
                    levels and tied to grant monies for implementation,

               •    development of standards for the desired levels of integration, and

               •    next generation communications equipment on a common
                    infrastructure/backbone.

   The Program Manager for SAFECOM stated that the final stage of the initiative is
   slated to begin in 2004. DoD is not one of the Federal partners for SAFECOM,
   but the program manager for SAFECOM shares information and coordinates with



   †
    In the past, SAFECOM was the acronym for Wireless Public Safety Interoperable
     Communications Program. SAFECOM is now the complete title of the program.



                                           23
the DoD Director of Wireless for Command, Control, and Communications, and
Intelligence. The program manager for SAFECOM requested that DoD entities
coordinate all communication efforts with the Director of Wireless.

        Narrowbanding Initiatives. DoD has adopted a land mobile radio policy
that will ensure new systems are timely and cost effective, and are achieving the
interoperability for DoD missions. The policy states that all land mobile radios
operating in the United States must comply with narrowbanding mandates by the
dates the National Telecommunications and Information Administration
published. The mandates require that eligible radio systems operate in a channel
one-half the size used.




                                   24
Appendix C. Emergency Medical Services
   The Services have not effectively integrated the F&ES and emergency medical
   services programs to provide the installations with efficient out-of-hospital
   emergency medical care. Some installation fire departments are under pressure
   from local commanders to assume additional emergency medical service
   responsibilities without receiving additional resources. Increased emergency
   medical service requirements include advanced life support, paramedic duties, or
   patient transport service. According to Service emergency medicine consultants,
   better integration between medical treatment facilities and fire departments on the
   installations is needed. The Army emergency medicine consultant suggested that
   medical staff could start training firefighters in the use of automatic external
   defibrillators, which could increase a patient’s chance of survival. An increasing
   amount of calls to installation fire departments are for emergency medical
   services rather than fire suppression. DoD fire departments reported that up to 75
   percent of their calls are for medical emergencies.

   Staffing and Training. Service emergency medicine consultants reported
   difficulty in maintaining qualified medical first responders. Large medical
   treatment facilities are equipped to train paramedics and emergency medical
   technicians and provide additional training for technicians to remain current in the
   specialty. However, smaller medical treatment facilities have difficulty
   sustaining an effective training program. Fire departments have firefighters
   trained to the emergency medical technician level and can provide basic life
   support.

   Ambulances. The Services use different methods for providing ambulance
   service on an installation. Medical treatment facilities, fire departments on the
   installation, or contractors may provide ambulance service depending on local
   needs and conditions. According to the Navy F&ES Program Manager, the
   delivery system for the installation emergency medical services that the medical
   treatment facilities provide does not meet community standards of care for either
   response or performance. Service emergency medicine consultants indicated that
   because the fire departments are first responders to an incident, fire departments
   should provide ambulance service on the installation. Service F&ES Program
   Managers we visited stated that they were willing to provide ambulance services
   out of their fire departments if given the needed resources to do so. Needed
   resources for ambulance service included staffing for ambulance transport
   vehicles, additional fire station space for ambulance response, increased training
   requirements, and funding for required equipment and replacement vehicles. The
   Marine Corps budgeted in FY 2004 for installation fire departments to provide
   ambulance service.




                                       25
Appendix D. Additional Missions for Fire
            Departments
    Fire departments are taking on additional missions beyond the structural fire
    suppression, inspection, and education duties. Additional missions include
    HAZMAT, technical rescues, wildland fires, and CBRNE responses.

    HAZMAT Response. The DoDI 6055.6 states that fire departments must be
    prepared to respond to emergencies involving HAZMAT. Fire departments must
    establish integrated regional HAZMAT response programs with DoD
    Components, other Federal agencies, and municipal entities to avoid duplication
    of resources.
    Technical Response. Service regulations require that fire chiefs at Army, Navy,
    Air Force, and Marine Corps installations establish and maintain a fire protection
    and an emergency services program that includes specialized rescue response.
    The Air Force and Army F&ES programs must include confined space rescue
    tailored to meet the requirements of the installation. Additionally, regulations for
    Navy and Marine Corps F&ES programs require that fire departments provide
    technical rescue services that include water, dive, high-angle, and confined space
    rescue capabilities when hazards at the installations require the capabilities. Even
    though the DLA F&ES regulation does not specifically address water or
    high-angle rescue, the Defense Distribution Susquehanna, Pennsylvania fire
    department performed those types of rescues as part of its normal duties. The
    DoDI 6055.6 dictates that Service Components establish rescue response
    requirements.

    Wildland Fire Response. DoDI 6055.6 states that any DoD fire department
    response to wildland fires shall be in accordance with the Federal Wildland Fire
    Management Policy and Program Review of 1995 and the Interagency Fire
    Management Agreement. The Instruction also states that, where fire departments
    provide rescue services, rescue response programs should be staffed with
    appropriately trained and equipped personnel.

    CBRNE Response. DoDI 2000.18 discusses installation responsibilities for
    emergency response for managing the consequences of a CBRNE incident. The
    instruction applies to all emergency responders of a CBRNE incident, including
    firefighters. DoDI 2000.18 states that fire and hazardous materials response
    functions should include fire suppression, rescue, atmospheric monitoring of
    chemical and biological substances, and mass decontamination of patients.




                                         26
Appendix E. Human Capital Strategy Standards
   A human capital strategy for the F&ES program may help DoD identify shortfalls
   within F&ES and provide a basis for supporting human capital requirements.
   Various government agencies have published guidance on human capital
   management. The Office of Personnel Management identified six human capital
   standards for success. The standards should be considered and addressed within a
   human capital strategy. The standards for success are strategic alignment,
   workforce planning and deployment, leadership and knowledge management,
   results-oriented performance culture, talent, and accountability.

   Strategic Alignment. The human capital strategy is aligned with mission, goals,
   and organizational objectives and should be integrated into strategic plans,
   performance plans, and budgets.

   Workforce Planning and Deployment. The organization should be
   citizen-centered, delayered, and mission-focused, and should leverage electronic
   Government and competitive sourcing.

   Leadership and Knowledge Management. Organization leaders and managers
   effectively manage people, ensure continuity of leadership, and sustain a learning
   environment that drives continuous improvement in performance.

   Results-Oriented Performance Culture. The organization has a diverse,
   results-oriented, high-performance workforce, and has a performance
   management system that effectively differentiates between high and low
   performance, and links individual, team, and unit performance to organizational
   goals and desired results.

   Talent. The organization has closed most mission-critical skills, knowledge, and
   competency gaps and deficiencies, and has made meaningful progress toward
   closing all.

   Accountability. Organization human capital decisions are guided by a
   data-driven results-oriented planning and accountability system.




                                       27
Appendix F. Management Letter Dated April 11,
            2003, and Response




                      28
29
30
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Assistant Chief of Staff for Installation Management

Department of the Navy
Commandant of the Marine Corps
  Deputy Commandant for Installations and Logistics
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Facilities Engineering Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Deputy Chief of Staff Installations and Logistics

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                         31
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        32
Assistant Deputy Under Secretary of Defense
(Environmental, Safety and Occupational
Health) Comments




                      33
Army Assistant Chief of Staff for Installation
Management Comments




                        34
35
36
Commander, Naval Facilities Engineering
Command and Deputy Commandant for the
Marine Corps (Installation and Logistics)
Comments




   *
   Two pages of the comments from Commander, Naval Facilities Engineering Command were
   omitted because they were duplicates of other pages.

                                              37
38
Final Report
 Reference




Revised




Revised




               39
40
Final Report
 Reference




Revised




               41
42
Air Force Deputy Chief of Staff Installations and
Logistics Comments




                       43
Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing of the Department of Defense prepared this report. Personnel of the
   Office of the Inspector General of the Department of Defense who contributed to
   this report are listed below.

   Robert K. West
   William C. Gallagher
   Michael R. Herbaugh
   Daniel S. Battitori
   Melissa M. McBride
   Beth K. Schaefer
   David E. Petko
   Sharon Carvalho
